                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1         October 1, 2009 – March 31, 2010
                                                                    AGENCY PROFILE

Chairman Wilma B. Liebman, Member            equivalents. NLRB Headquarters is at
Peter C. Schaumber, and General              1099 14th Street, NW, Washington, DC.
Counsel Ronald Meisburg continue to
serve during this reporting period.          In addition to the Headquarters building,
                                             employees are located in 51 field offices
On March 27, 2010, the President             throughout the country. Three satellite
announced the recess appointments of         offices for the administrative law judges
Craig Becker and Mark Gaston Pearce to       are located in Atlanta, San Francisco,
fill two of the three Board Member           and New York City. Since October 2,
vacancies.                                   2000, field offices have included 32
                                             Regional Offices, 16 Resident Offices,
The NLRB received an appropriation of        and 3 Subregional Offices.
$283,400,000 for Fiscal Year (FY) 2010
to fund a ceiling of 1,685 full-time         Additional information about the NLRB
                                             can be found at www.NLRB.gov.




NLRB OIG Semiannual Report               2         October 1, 2009 – March 31, 2010
                                   OFFICE OF INSPECTOR GENERAL
NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                      Investigations, an Assistant Inspector
The FY 2010 OIG budget is $1,281,700           General for Audits, two auditors, and a
for operations, of which $213,500 is for       staff assistant. At this time, the OIG is
contract services. In addition to the          recruiting to fill the Counsel/Assistant
Inspector General, the OIG consists of a       Inspector General for Investigations
Counsel/Assistant Inspector General for        position and an auditor position.




NLRB OIG Semiannual Report                 3          October 1, 2009 – March 31, 2010
                                                             AUDIT PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued two audit
reports, three issue alerts, and conducted the annual review required by the Federal
Information Security Management Act.

Reports Issued                                   was not necessary to meet the need of
   We issued Audit Report OIG-F-                FY 2009, nor was it necessary to avoid a
14-10-01, Audit of the NLRB Fiscal               disruption of the NLRB’s operations.
Year 2009 Financial Statements, on
December 11, 2009. The audit,                    A Management Letter by CBTC, as part
performed by Carmichael, Brasher,                of the financial statement audit process,
Tuvell & Company (CBTC), an                      also addressed this noncompliance with
independent public accounting firm,              the bona fide needs rule. Management
found that the NLRB's FY 2009                    disagreed with the conclusion that the
Financial Statements were fairly stated,         postage purchase violated the bona fide
and no material weaknesses in controls           needs rule and the recommendation to
over financial reporting were identified.        de-obligate $250,000 of postage advance
Although no material weaknesses were             from FY 2009 and re-obligate the
identified, an issue involving                   postage advance using FY 2010 funds.
noncompliance with laws and                      Management stated the purchase of this
regulations was reported.                        postage was prudent and consistent with
                                                 Agency history and sound business
The noncompliance with laws and                  practice. Management agreed with the
regulations was that the Agency did not          recommendation to develop and
adhere to the bona fide needs rule (31           implement procedures to monitor
U.S.C. § 1502) when the Division of              postage that would ensure that purchases
Administration purchased $250,000 of             and distribution to field offices would
postage on September 29, 2009. The               only be made when needed.
auditors found that the postage purchase



NLRB OIG Semiannual Report                   4          October 1, 2009 – March 31, 2010
                                                                           AUDIT PROGRAM

   We issued Audit Report OIG-AMR-               and did not request or receive approval
62-10-01, Official Time for Union                 from a supervisor or manager for the use
Activities, on December 11, 2009. This            of official time.
audit was conducted to evaluate the
management and use of official time for           The amount of official time used by
representational activities by employees          these seven officers represents 7.25
in the NLRB’s bargaining units.                   hours per bargaining unit employee at an
                                                  estimated cost of $459,910. Given the
The Office of Personnel Management’s              cost of the official time, the lack of
(OPM) yearly reports of official time by          oversight, and the disparity with the
union officials for both FY 2007 and FY           Governmentwide average, we
2008 listed the NLRB as having the                questioned whether the amount of time
highest per capita use of official time for       used by these officials meets the
union activities. For FY 2008, 13,447             statutory test of reasonableness,
hours of official time were reported to           necessity, and public interest.
OPM as being used by the NLRB’s two
employee unions. The reported cost of             We also identified internal control issues
those hours was $772,632.                         for employees other than the seven
                                                  officers. A significant control issue that
We found that the majority of the                 we identified was that the request and
official time, 8,004 hours, was used by           approval documentation was generally
seven NLRB employees who were union               not maintained. We also found that the
officers. For six of these employees,             Agency could, but does not, record the
their collective bargaining agreements            use of official time by bargaining unit
authorized the official time in advance           employees in its payroll system.
without any requirement to show a need
for the time. The other employee only             Management commented that they agree
engaged in representational activities            that there are numerous issues involving



NLRB OIG Semiannual Report                    5          October 1, 2009 – March 31, 2010
                                                                         AUDIT PROGRAM

the use and recording of official time for       3. Engage in a meaningful deliberative
union activities and they expect the audit           process while issuing Board
report to be useful as they work with the            decisions in a timely manner so as to
employee unions to address those                     ensure the effective enforcement of
matters. Nevertheless, because of the                the National Labor Relations Act;
collective bargaining agreements and             4. Maintain the Agency’s institutional
litigation involving the consolidation of            knowledge;
the bargaining units, action on the              5. Manage the Agency during periods
recommendations may be delayed                       of time that are covered by
pending the resolution of those matters.             continuing resolutions and
                                                     appropriations that are expected to
   We released Issue Alert OIG-IA-                  be flat or provide only nominal
10-01, Top Management and                            increases;
Performance Challenges, on October               6. Manage the Agency’s procurement
14, 2009. The OIG developed a list of                process to ensure compliance with
what it considers to be the most serious             the Federal Acquisition Regulation;
management and performance                       7. Strengthen controls over employees’
challenges currently facing the NLRB.                use of Agency information
The first two are newly identified                   technology assets, to include internet
challenges, and the remainder are                    access;
continuing challenges. They are:                 8. Implement e-government initiatives
                                                     to effectively communicate with
1. Implementation of the Next                        parties and the public; and
    Generation Case Management                   9. Implement audit findings in a timely
    System;                                          manner.
2. Seize opportunities to create more
    productive and efficient procedures             We released Issue Alert
    and organizations;                           OIG-IA-10-02, Employee



NLRB OIG Semiannual Report                   6         October 1, 2009 – March 31, 2010
                                                                          AUDIT PROGRAM

Representative, on March 5, 2010. We              continued representation in the
became aware that an Agency manager               mediation sessions and identified factors
was representing another Agency                   that should be considered. Thereafter,
employee in mediation proceedings in a            the manager was removed from the
matter involving the Agency.                      representation.


An employee of an agency of the United               We released Issue Alert OIG-IA-
States may not act as an agent or                 10-03, Office of Equal Employment
attorney for anyone before any agency in          Opportunity Purchase of Food, on
connection with any covered matter in             March 19, 2010. The Office of Equal
which the Unites States is a party or has         Employment Opportunity (OEEO)
a direct and substantial interest. There is       purchased and served food as part of its
an exception to this prohibition in               2010 National African American History
certain circumstances only when the               Month program.
employee’s representation is “not
inconsistent with the faithful                    As a general rule, the Agency may not
performance of that officer’s or                  use appropriated funds to purchase food
employee’s duties.”                               for its employees. This principle of
                                                  appropriation law is based on the
Based on a review of the facts, we                premise that food and entertainment are
concluded that the manger did not                 personal expenses that employees are
receive proper authorization for the              expected to bear.
representation and, therefore, there was
no consideration of whether the                   There are a number of narrow
manager’s representation was                      exceptions to this general rule. One of
inconsistent with the faithful                    the exceptions allows for the purchase of
performance of official duties. We                food that is provided to employees as a
recommended that the Chairman and                 sampling of ethnic food that is prepared
General Counsel consider the manager’s

NLRB OIG Semiannual Report                    7         October 1, 2009 – March 31, 2010
                                                                        AUDIT PROGRAM

and served as an integral part of a                The Federal Information Security
celebration intended to further OEEO            Management Act of 2002 requires
objectives by increasing an employee’s          Inspectors General to conduct annual
appreciation for the cultural heritage of       reviews of information security
an ethnic group.                                programs. The OIG review was
                                                primarily accomplished as part of the
Under the Government Accountability             audit of the FY 2009 financial
Office’s (GAO) guidance, we                     statements. On November 17, 2009, the
determined that the food served by the          Chairman submitted reports from the
OEEO was a meal rather than a sample.           Inspector General and the Chief
                                                Information Officer to the Office of
The food cost $1,100. Also, $30 was             Management and Budget.
spent for iced tea and ginger ale and
approximately $70 was spent for                 Audit Follow-up
flowers. In addition to the 2010                Agreed upon actions were not completed
National African American History               within 1 year on six audit reports.
month program, we identified similar
expenditures of appropriated funds for             Audit of the NLRB Fiscal Year
food, soft drinks, or flowers made since        2006 Financial Statements, OIG-F-11-
February 2006 that totaled $9,586.62.           07-01, was issued on December 14,
                                                2006, and we reached agreement with
We also stated our opinion that when            management on June 14, 2007. We
appropriated funds are applied to a             continue to monitor the Agency’s
prohibited or unauthorized purpose, an          progress towards implementing the final
Antideficiency Act violation occurs             open recommendation.
because the obligation of funds are
viewed as being in excess of the amount            Continuity of Operations,
(zero) available for that purpose.              OIG-AMR-55-07-03, was issued on



NLRB OIG Semiannual Report                  8         October 1, 2009 – March 31, 2010
                                                                      AUDIT PROGRAM

September 18, 2007, and we reached            has been completed on five of the seven
agreement with management on that             recommendations. The Agency is
date. Action has been completed on one        actively working to implement the other
of the three recommendations. The             two recommendations.
Agency is actively working to
implement the other two                          Budget Submission Case
recommendations.                              Processing Data, OIG-AMR-58-08-02,
                                              was issued on September 3, 2008, and
   Audit of the NLRB Fiscal Year             we reached agreement with management
2007 Financial Statements, OIG-F-12-          on that date. We closed the audit report
08-01, was issued on December 17,             on April 27, 2010.
2007, and we reached agreement with
management on that date. Action has              Laptop Computer Accountability
been completed on two of the three            and Security, OIG-AMR-59-09-01, was
recommendations. The Agency is                issued on February 27, 2009, and we
actively working to implement the final       reached agreement with management on
recommendation.                               that date. None of the six
                                              recommendations made in the report
   Office of the Chief Information           have been fully implemented. We will
Officer Procurement Functions, OIG-           continue to monitor management’s
AMR-57-08-01, was issued on March             progress in implementing these
14, 2008, and we reached agreement            recommendations.
with management on that date. Action




NLRB OIG Semiannual Report                9         October 1, 2009 – March 31, 2010
                                               INVESTIGATIONS PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 149 contacts, initiated 5 cases, and closed 10 cases. The investigations
resulted in two separations in lieu of disciplinary action, a suspension with a demotion, a
reprimand, and two agreements for the loss of leave in lieu of other disciplinary action.
The OIG also referred three matters to the Department of Justice.


                        Case Workload                    Contacts Processed

                  Open (4/1/2009)         13        Received                  149

                  Initiated                5        Initiated Investigation     0

                  Closed                  10        Opened Case --              0
                                                    Referred to Agency
                  Open (9/30/2009)         8        Non-Investigative         149
                                                    Disposition


   Loss of Property. As previously                      False Employment Application.
reported, we initiated this investigation            This investigation was initiated after we
after learning that certain inventoried              received a report that the subject, an
property was missing. We found that                  Agency employee, submitted a false
two employees were involved in the                   application for a higher graded position.
taking of the property and that they took            Our investigation substantiated the
action to conceal the misconduct from                allegation. The subject separated in lieu
Agency management. One of the                        of disciplinary action. (OIG-I-444)
employees also provided misleading
information to the OIG. We recovered                     Alteration of Records. We
the property. During this reporting                  initiated an investigation of an employee
period, the employee who provided                    who altered Agency records for the
misleading information to the OIG                    benefit of a fellow employee. We
agreed to separate in lieu of disciplinary           determined that the allegation was
action. The second employee received a               substantiated. With regard to the
letter of reprimand. (OIG-I-431)                     employee who received the benefit, we



NLRB OIG Semiannual Report                     10              October 1, 2009 – March 31, 2010
                                                             INVESTIGATIONS PROGRAM

determined that he was unaware of the              Internet Misuse. After reviewing
nature of the wrongdoing. The U.S.              the Agency’s Internet logs to determine
Attorney’s Office declined prosecution.         if the subject in OIG-I-436 stopped
During this reporting period, the               misusing the Agency’s Internet access
employee who made the alteration                and laptop computer to view sexually
received a suspension and change in             graphic material, we determined that
duties as disciplinary action.                  more likely than not a second employee
(OIG-I-426)                                     was using the Agency’s Internet access
                                                and laptop computer to view sexually
   Internet Misuse. After reviewing            graphic material. A forensic
the Agency’s Internet logs during an            examination of the hard drive from the
audit, we determined that more likely           second employee's Government
than not an employee was using the              computer substantiated the allegation
Agency’s Internet access and laptop             and provided additional evidence that
computer to view sexually graphic               the employee used Agency equipment
material. A forensic examination of the         for outside business activity. When
hard drive from the subject's                   interviewed by the OIG, the employee
Government computer substantiated the           admitted to engaging in the misconduct.
allegation. When interviewed by the             After we issued an investigative report,
OIG, the subject admitted to engaging in        the Agency and employee agreed that
the misconduct. After we issued an              the employee would donate leave to the
investigative report, the Agency and            Agency’s leave donor program in lieu of
employee agreed that the employee               other disciplinary action. (OIG-I-442)
would donate leave to the Agency’s
leave donor program in lieu of other               Failure to Pay Travel Card
disciplinary action. (OIG-I-436)                Balance. We initiated this investigation




NLRB OIG Semiannual Report                 11         October 1, 2009 – March 31, 2010
                                                                INVESTIGATIONS PROGRAM

after a review of the monthly travel card         received, regardless of the method used,
reports disclosed that an employee failed         is referred to as Hotline contacts.
to pay the balance due. Our
investigative efforts disclosed that              The information received over the
charges on the travel card were proper in         Hotline is the basis for the initial review
that they were related to official travel.        for potential investigations. The
Because we found that the employee had            information is analyzed to determine if
not misused the travel card for improper          further inquiry is warranted. Most
purchases, we referred this matter to the         Hotline contacts are calls from members
employee's managers to ensure that the            of the public seeking help on an
balance was paid. (OIG-I-439)                     employment-related problem or issues
                                                  outside OIG and/or Agency jurisdiction.
Hotline
Employees and members of the public               As appropriate, OIG refers these callers
with information on fraud, waste, and             to the Regional Office; local, state, or
abuse are encouraged to contact OIG.              Federal agency; or private resources to
A log of calls to a nationwide toll-free          provide assistance. During this
number or the office numbers and a log            reporting period, OIG received 149
of mail, e-mail, and facsimile messages           Hotline contacts, of which 46 were
are maintained. All information                   telephone calls or walk-ins and 103 were
                                                  in writing.




NLRB OIG Semiannual Report                   12          October 1, 2009 – March 31, 2010
                    LEGISLATION, REGULATIONS, AND POLICY
The responsibilities and duties of an OIG include reviewing existing and proposed
legislation and regulations relating to the programs and operations of its agency and
making recommendations in the semiannual reports concerning the impact of such
legislation or regulations on the economy and efficiency in the administration of
programs and operations administered or financed by the agency or the prevention and
detection of fraud and abuse in such programs and operations.

Legislation                                        treble backpay to workers whom they
During this reporting period, there were           are found to have illegally fired; and
no new legislative proposals that would            allow employers and newly formed
significantly impact the programs and              unions to refer bargaining to mediation
operations of the Agency. There are two            and, if necessary, binding arbitration if
existing legislative proposals that were           they are not able to agree on a first
reported in prior semiannual reports that          contract.
remain before Congress. The impact of
these proposals on the NLRB and its                H.R. 1176 and S. 478, Secret Ballot
programs has been the subject of                   Protection Act. This legislation would
extensive debate.                                  amend the NLRA to make it an unfair
                                                   labor practice for an employer to
H.R. 1409 and S. 560, Employee Free                recognize or bargain collectively with a
Choice Act of 2009. This legislation               labor organization that has not been
would amend the NLRA to allow                      selected by a majority of the employees
employees to form a union either                   in a secret ballot election conducted by
through majority sign-up or an NLRB                the NLRB. The legislation would also
election. The legislation would also               make it an unfair labor practice for a
increase the penalties against employers           labor organization to cause or attempt to
that illegally fire or discriminate against        cause an employer to recognize or
workers for their union activity during            bargain collectively with a
an organizing or first contract drive,             representative that has not been selected
including requiring employers to pay               in such a manner.



NLRB OIG Semiannual Report                    13          October 1, 2009 – March 31, 2010
                                               LEGISLATION, REGULATIONS, AND POLICY

Regulations                                     Rules Revision Committee that develops
The Counsel to the Inspector General is         changes to the Agency's procedural
an advisory member of the Agency's              regulations.




NLRB OIG Semiannual Report                14          October 1, 2009 – March 31, 2010
                                                       LIAISON ACTIVITIES
The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                     The Counsel participated in the Council
The Inspector General is a member of            of Counsels to Inspectors General.
the Council of the Inspectors General on
Integrity and Efficiency. This                  Government Accountability Office
organization consists of Inspectors             The IG Act states that each Inspector
General at the Federal Government's             General shall give particular regard to
departments and agencies.                       the activities of the Comptroller General
                                                of the United States, as head of the
The Assistant Inspector General for             GAO, with a view toward avoiding
Audits, or designated auditors,                 duplication and ensuring effective
participated in the Federal Audit               coordination and cooperation. We had
Executives Council, Financial Statement         no activity during this reporting period
Audit Network, and the Interagency              that required coordination with GAO.
Investigative Data Mining Working
Group.




NLRB OIG Semiannual Report                 15          October 1, 2009 – March 31, 2010
                           INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             Three cases were referred to prosecutorial authorities.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 17.

(8), (9)        Two audit reports issued during this period had questioned costs or
                recommendations that funds could be put to better use. See Table 1 and 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      16           October 1, 2009 – March 31, 2010
                          AUDIT REPORTS BY SUBJECT MATTER

                                                                      Funds To
                              Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number         Costs         Costs        Costs      Better Use

ADMINISTRATION

NLRB Fiscal Year 2009
Financial Statements
OIG-F-14-10-01                 $250,000         0            0            0


Official Time for Union
Activities
OIG-AMR-62-10-01               $459,910         0            0            0




NLRB OIG Semiannual Report           17         October 1, 2009 – March 31, 2010
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       2         $709,910           0

       Subtotals (A+B)                    2         $709,910           0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0         $709,910           0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    18   October 1, 2009 – March 31, 2010
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      0             0

       Subtotals (A+B)                   0             0


C. For which a management
   decision was made during the
   reporting period                      0             0

(i)      Dollar value of
         recommendations that were
         agreed to by management         0             0

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0             0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   19    October 1, 2009 – March 31, 2010
Every employee is the
guardian of integrity                                        .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570




NLRB OIG Semiannual Report   20   October 1, 2009 – March 31, 2010
